TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Chief Counsel Can Take Actions to Improve
                 the Timeliness of Private Letter Rulings and
                    Potentially Reduce the Number Issued



                                      September 10, 2010

                              Reference Number: 2010-10-106




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


CHIEF COUNSEL CAN TAKE ACTIONS                       taxpayers after case assignment to discuss the
TO IMPROVE THE TIMELINESS OF                         taxpayers’ issues. In addition, the PLR cases
PRIVATE LETTER RULINGS AND                           sampled for review were not always closed by
POTENTIALLY REDUCE THE NUMBER                        Chief Counsel personnel in a timely manner.
                                                     Specifically, 50 of the 65 sampled cases
ISSUED
                                                     involved an untimely PLR that was issued after
                                                     Chief Counsel’s 120-calendar day goal (closures
Highlights                                           ranged between 121 to 3,548 calendar days).
                                                     Our review also showed that Chief Counsel is
                                                     not monitoring available information to consider
Final Report issued on September 10,                 whether published guidance should be issued
2010                                                 on certain issues. TIGTA determined some
                                                     PLR cases closed during Fiscal Years 2007
Highlights of Reference Number: 2010-10-106          through 2009 related to similar issues.
to the Internal Revenue Service Chief Counsel.       Specifically, PLRs were issued to taxpayers
                                                     more than 150 times for each of 4 of the top 5
IMPACT ON TAXPAYERS
                                                     most used issue codes during our audit period.
Internal Revenue Service (IRS) Chief Counsel         If Counsel issued more published guidance for
issues Private Letter Rulings (PLR) that interpret   these tax issues, it may prevent the need for a
and apply the tax law to taxpayers’ specific set     number of PLRs.
of facts and advises taxpayers of the tax
treatment they can expect from the IRS in the        WHAT TIGTA RECOMMENDED
circumstances specified by the ruling. TIGTA         TIGTA recommended that the Chief Counsel
determined that Chief Counsel can take               establish and track formal goals that require
additional actions to more timely contact            Chief Counsel personnel to issue PLR rulings
taxpayers and close their requests for PLRs.         within an established number of calendar days,
Delays in providing letter rulings can               develop and implement a review process that
substantially increase taxpayer burden because       will enable Chief Counsel management to
PLRs are generally needed before the taxpayer        identify delays in both timely contacting
files a tax return and could result in delayed tax   taxpayers and closing PLR requests within
return filing or amended returns, as well as         established time periods, and better document
additional accounting fees. Further, Chief           and monitor when taxpayers are initially
Counsel can potentially reduce the number of         contacted and the reasons for any delays in
PLRs requested by issuing more published             closing PLR requests. TIGTA also
guidance that would benefit a greater number of      recommended that the Chief Counsel establish
taxpayers.                                           a process to annually review issue codes related
                                                     to PLRs and determine whether published
WHY TIGTA DID THE AUDIT
                                                     guidance should be issued.
This audit was initiated as part of our Fiscal
                                                     IRS management fully agreed with two
Year 2010 Annual Audit Plan. The overall
                                                     recommendations and partially agreed with the
objective of this review was to determine
                                                     remaining two recommendations. Management
whether IRS Chief Counsel provided timely
                                                     agreed to review their procedures to determine
legal advice to taxpayer requests for PLRs and
                                                     what changes are needed to strengthen their
charged taxpayers the appropriate user fees for
                                                     ability to identify delays in letter rulings, and
PLRs.
                                                     reemphasize the importance of file maintenance
WHAT TIGTA FOUND                                     and management information system
                                                     requirements. Management did not fully agree
Overall, the Office of Chief Counsel ensured that    to establish formal timeliness goals for issuing
the correct PLR user fees were charged to            PLR rulings or agree to specifically establish an
taxpayers. However, the IRS can take                 annual review process of PLR issue codes to
additional actions to more timely provide            identify the opportunity to issue published
taxpayers with responses to their requests for       guidance.
PLRs. TIGTA determined that Chief Counsel
personnel did not always timely contact
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 10, 2010


 MEMORANDUM FOR CHIEF COUNSEL, INTERNAL REVENUE SERVICE

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Chief Counsel Can Take Actions to Improve the
                             Timeliness of Private Letter Rulings and Potentially Reduce the
                             Number Issued (Audit # 200910019)

 This report presents the results of our review to determine whether the Internal Revenue Service
 Chief Counsel provided timely legal advice to taxpayer requests for Private Letter Rulings and
 charged taxpayers the appropriate user fees for Private Letter Rulings. This audit was conducted
 as part of the Treasury Inspector General for Tax Administration’s Fiscal Year 2010 Annual
 Audit Plan and addresses the major management challenge of Providing Quality Taxpayer
 Service Operations.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                                       Chief Counsel Can Take Actions to Improve
                                       the Timeliness of Private Letter Rulings and
                                         Potentially Reduce the Number Issued




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review .......................................................................... …………….Page 3
          Chief Counsel Could Provide Taxpayers With More Timely Answers
          to Their Requests ................................................................................ Page 3
                    Recommendations 1 and 2: ......................................................... Page 5

                    Recommendation 3:.......................................................... Page 6

          Available Information Is Not Being Used to Determine Whether the
          Issuance of Private Letter Rulings Can Potentially Be Reduced................ Page 6
                    Recommendation 4:.......................................................... Page 8


Appendices
          Appendix I – Detailed Objective, Scope and Methodology .......................... Page 9
          Appendix II – Major Contributors to This Report ......................................... Page 11
          Appendix III – Report Distribution List ........................................................ Page 12
          Appendix IV – Outcome Measure ................................................................. Page 13
          Appendix V – Management’s Response to the Draft Report ........................ Page 14
      Chief Counsel Can Take Actions to Improve
      the Timeliness of Private Letter Rulings and
        Potentially Reduce the Number Issued




            Abbreviations

FY    Fiscal Year
IRS   Internal Revenue Service
PLR   Private Letter Ruling
                                  Chief Counsel Can Take Actions to Improve
                                  the Timeliness of Private Letter Rulings and
                                    Potentially Reduce the Number Issued




                                              Background

A Private Letter Ruling (PLR) is a written response to a
taxpayer by Chief Counsel that interprets and applies the
                                                                 A PLR is a written response to a
tax law to the taxpayer’s specific set of facts. The
                                                                  taxpayer by Chief Counsel that
purpose of the letter ruling is to advise the taxpayer             interprets and applies the tax
regarding the tax treatment he or she can expect from the law to the taxpayer’s specific set
Internal Revenue Service (IRS) in the circumstances                           of facts.
specified by the ruling. For example, taxpayers can
request a PLR on any section of the Internal Revenue
Code. This could include a multitude of questions ranging from changes in accounting method
to relief provisions that permit taxpayers to file late elections even when the statute requires a
timely election with the return. PLRs can help taxpayers confirm the tax treatment of proposed
transactions before they are undertaken, so the timeliness of advice is important. As a result,
PLRs are generally provided to taxpayers before a tax return is filed. In general, taxpayers
requesting a letter ruling are required to pay the IRS a user fee1 to receive advice. The amount of
the user fee depends on the tax issue, but generally ranges from $625 to $11,500 per request.2
A PLR can be relied upon only by the specific taxpayer receiving the ruling; however, the
general facts of the ruling are made available to the public. In contrast, Counsel’s primary means
of providing interpretation of the Internal Revenue laws to the general public is in the form of
published guidance. Counsel conducts a variety of published guidance projects that could result
in publication of regulations, revenue rulings, revenue procedures, and notices. The number of
PLR cases closed has decreased from 1,330 cases in Fiscal Year (FY) 2003 to 1,000 cases in
FY 2009. However, PLRs remain a popular mechanism with taxpayers and their representatives.
This review was performed at the Chief Counsel’s Headquarters office located in
Washington, D.C., during the period November 2009 through March 2010. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We did
not evaluate the accuracy of the PLR legal interpretation, but focused on the processing of the
letter ruling requests. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit

1
  A fee paid by the taxpayer for requests to the IRS for rulings, opinion letters, determination letters, and similar
requests.
2
  Reduced user fees apply to requests involving personal or business tax issues from a person with gross income of
less than $250,000. The $11,500 user fees apply to letter ruling requests involving accounting periods and
accounting methods.
                                                                                                              Page 1
                            Chief Counsel Can Take Actions to Improve
                            the Timeliness of Private Letter Rulings and
                              Potentially Reduce the Number Issued


objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.
                                               .




                                                                                         Page 2
                            Chief Counsel Can Take Actions to Improve
                            the Timeliness of Private Letter Rulings and
                              Potentially Reduce the Number Issued




                                Results of Review

Overall, we found that the Office of Chief Counsel ensured that the correct PLR user fees were
charged to taxpayers. Specifically, our review of 65 sampled PLR cases indicated that Chief
Counsel properly collected $405,800 in user fees for these cases. However, Chief Counsel can
take additional actions to more timely contact taxpayers and close their requests for PLRs.
Further, Chief Counsel can more effectively use available information to potentially reduce the
number of PLRs requested by issuing more published guidance when taxpayers are requesting
PLRs for similar issues.
Delays in providing taxpayers with timely letter rulings can substantially increase taxpayer
burden, both in terms of meeting their tax responsibilities in filing timely and in incurring
additional accounting fees for requesting filing extensions as well as amended returns. In
addition, the issuance of published guidance in lieu of PLRs, when applicable, would enable
Chief Counsel to benefit a greater number of taxpayers.

Chief Counsel Could Provide Taxpayers With More Timely Answers to
Their Requests
The IRS can take additional actions to more timely provide taxpayers with responses to their
requests for PLRs. Specifically, Chief Counsel personnel did not always timely contact
taxpayers after case assignment to discuss the taxpayers’ issues. In addition, the PLR cases
sampled for review were not always closed by Chief Counsel personnel in a timely manner.
Chief Counsel procedures require that the attorney assigned to the PLR case contact the taxpayer
(or power of attorney) within 21 calendar days to discuss the issues in the request. However, our
analysis of a statistical sample of 65 PLR cases closed during FY 2007 through FY 2009 showed
that Chief Counsel personnel did not make the initial contact within 21 calendar days as required
in 9 (14 percent) cases. The initial contact for these 9 cases ranged from 22 to 125 calendar days
(3 weeks to 4 months). We were unable to identify the contact time period for 16 (25 percent) of
the 65 PLRs in our sample due to missing case history sheets or insufficient documentation of
case activity.
While not documented in its procedures, Chief Counsel management stated that it has a goal of
closing PLR cases within 180 calendar days of receiving the PLR request from the taxpayer.
The initial 120 calendar days is a target date Counsel places on attorneys for issuing the PLR,
and the additional 60 calendar days allowed is for receiving additional information from the
taxpayer, other unanticipated priorities, and for closing the case administratively.



                                                                                           Page 3
                              Chief Counsel Can Take Actions to Improve
                              the Timeliness of Private Letter Rulings and
                                Potentially Reduce the Number Issued


In 35 (54 percent) of the 65 cases, Counsel took from 121 to 180 calendar days to provide the
taxpayer with the letter ruling, thus exceeding Counsel’s internal target date of 120 calendar
days. In addition, even after allowing for the additional 60 calendar days for additional
information from the taxpayer and for administrative processing, 15 (23 percent) of the 65 cases
took longer than the 180-calendar day goal to close the case (ranging from 199 to 3,548 calendar
days to provide the taxpayer with the letter ruling). For the 50 cases that were closed after the
120-calendar day goal, Counsel took an average of 276 calendar days to close the cases, which is
almost double the amount of time allowed by its internal goal. We believe that taxpayers should
be provided responses to their requests in a more timely manner. If we project the results to the
population, 3,074 taxpayers were potentially burdened because a response to their PLR was not
provided by Chief Counsel within 120 calendar days. Figure 1 summarizes the results of our
review.
                     Figure 1: Delays in Processing PLR Requests
                               in FYs 2007 Through 2009
                                                                          Total
                                                Number
                                 Range of                               Estimated
                    Type of                     of Cases     Percentage
                                 Calendar                                Untimely
                     Error                      Untimely      Untimely
                                  Days                                   Cases in
                                               in Sample
                                                                        Population
                   Untimely        22-125
                     Initial      calendar
                                                   9             14%
                  Contact by        days                                        553
                    Counsel
                  PLR Issued      121-180
                    Between       calendar
                   121 to 180       days           35            54%           2,152
                   Calendar
                      Days
                  PLR Issued     199-3,548
                   More than      calendar
                      180           days           15            23%            922
                   Calendar
                      Days
                 Source: Treasury Inspector General for Tax Administration review of
                 65 sampled PLR cases closed by Chief Counsel in FYs 2007-2009.

Delays in providing taxpayers with timely letter rulings can substantially increase taxpayer
burden, both in terms of meeting their tax responsibilities in filing timely and in incurring
additional accounting fees for extensions to file and the preparation of amended returns. In the
15 cases that Counsel did not provide a timely response within 180 calendar days, we determined
that 10 taxpayers requested an extension to file their tax return. In addition, 22 of the
35 taxpayers that did not receive a response within 120 calendar days requested either a filing
extension or filed an amended return. Because the IRS does not require taxpayers to document

                                                                                          Page 4
                             Chief Counsel Can Take Actions to Improve
                             the Timeliness of Private Letter Rulings and
                               Potentially Reduce the Number Issued


the reason for requesting an extension to file, we cannot definitively determine that the delay in
receiving a response to the PLR request was the sole reason for requesting a filing extension
and/or filing an amended tax return.
We reviewed the case files for the 15 PLR cases closed more than 180 calendar days after the
taxpayer’s request but were unable to determine why the PLR was delayed due to insufficient
documentation maintained in the case file. Specifically, some case files did not contain the case
history documentation to explain the actions taken, or the history information was not complete.
In addition, attorneys are not required to update available fields on Counsel’s management
information system that would assist in monitoring PLR case activity.
Counsel management stated that although PLRs are important, they are not given priority status
over other types of cases. In addition, Counsel management has not established a process to
monitor PLR cases to identify and resolve those cases in which an initial contact was not made
timely or cases were not closed within 180 calendar days.

Recommendations
The Chief Counsel should:
Recommendation 1: Establish and track formal goals that require Chief Counsel personnel to
issue PLR rulings within an established number of calendar days.
       Management’s Response: Management partially agreed with this recommendation.
       Management agreed that taxpayers and tax administration are better served when letter
       rulings are issued timely. Although Chief Counsel does not have a published goal in
       connection with the timely issuance of a letter ruling, letter ruling timeliness goals are
       included in the performance goals of each executive in the Office of Chief Counsel who
       has subject matter responsibility over a portion of the letter ruling program. Chief
       Counsel management stated they will consider establishing, publishing, and tracking an
       office-wide timeliness goal for the issuance of a letter ruling.
       Office of Audit Comment: Although timeliness goals may be included in the
       performance goals of applicable Chief Counsel executives, this has not resulted in timely
       responses for PLRs. Based on the number and extent of untimely requests identified
       during our review, we believe that until Chief Counsel establishes formal timeliness goals
       and tracks progress made, untimely PLRs will continue to occur.
Recommendation 2: Develop and implement a review process that will enable Chief Counsel
management to identify delays in both timely contacting taxpayers and closing PLR requests
within established time periods.
       Management’s Response: Management agreed with this recommendation.
       Management agreed that they should generally contact taxpayers and close letter ruling

                                                                                             Page 5
                            Chief Counsel Can Take Actions to Improve
                            the Timeliness of Private Letter Rulings and
                              Potentially Reduce the Number Issued


       requests within the established time periods and agreed that they should be aware of, and
       consulted on, any delays. Chief Counsel management indicated they will review their
       procedures generally to determine what changes are needed to specifically strengthen
       management’s ability to identify delays in the letter ruling program.
Recommendation 3: Better document and monitor when taxpayers are initially contacted and
the reasons for any delays in closing PLR requests by:
   •   Reinforcing to Chief Counsel personnel the requirement to maintain necessary
       documentation in case files.
   •   Requiring attorneys to update key fields on Counsel’s management information system to
       document when taxpayers are initially contacted and the reasons for any delays in closing
       PLR requests.
   •   Requiring managers to ensure adequate documentation is maintained in the case files and
       the information system is updated when reviewing the cases prior to closure.
       Management’s Response: Management agreed with this recommendation. The
       Office of Chief Counsel will remind all personnel of file maintenance and management
       information system requirements and remind managers of their responsibility to ensure
       that personnel that they supervise are complying with these requirements.

Available Information Is Not Being Used to Determine Whether the
Issuance of Private Letter Rulings Can Potentially Be Reduced
Our review showed that Chief Counsel is not monitoring available information to consider
whether published guidance should be issued on certain tax issues. Specifically, we determined
some PLR cases closed during FYs 2007 through 2009 related to the same Internal Revenue
Code sections. By determining whether published guidance could be issued on some of these
topics, Chief Counsel could reduce the amount of resources expended in the PLR program, while
affecting a larger number of taxpayers. IRS management needs to ensure that its programs
operate efficiently and that program information is periodically monitored to identify
opportunities to improve service to taxpayers.
When a PLR request is received by Chief Counsel, an attorney is required to input an issue code
into Counsel’s management information system. The issue codes are key components used to
capture issue information. Capturing the proper code is important in identifying, researching,
and analyzing significant issues relating to tax compliance. This code identifies the applicable
Internal Revenue Code Section related to the taxpayer’s PLR request. Figure 2 shows four of the
top five most used issue codes and the number of times they were used during our audit period.




                                                                                          Page 6
                                                                           Chief Counsel Can Take Actions to Improve
                                                                           the Timeliness of Private Letter Rulings and
                                                                             Potentially Reduce the Number Issued


                                                                     Figure 2: PLRs With Similar Issue Codes3
                                                                                  PLRs With Sim ilar Is sue Codes



                                                                     350                                                 311
                          Number of Issue Codes (FYs 2007 to 2009)




                                                                                275
                                                                     300

                                                                                              226
                                                                     250

                                                                                                             157
                                                                     200


                                                                     150


                                                                     100


                                                                      50


                                                                       0
                                                                           1362.00-00   1362.01-03   1362.04-00     9100.00-00
                                                                                              Is sue Codes


                       Source: Treasury Inspector General for Tax Administration review of
                       Chief Counsel’s case management information system data.

PLRs were issued to taxpayers more than 150 times for each of these issue codes during our
audit period. We also identified 5 additional issue codes for which each had approximately
120 letter rulings issued to taxpayers during our audit period. Each of these issues could
represent a strong need for published guidance which would be available to all taxpayers. Based
on the extensive number of PLRs issued within a 3-year period, we believe Counsel should
annually evaluate the need for published guidance for particular Internal Revenue Code Sections
that have resulted in numerous PLR requests. If Counsel issued more published guidance for
these tax issues, it may prevent the need for a number of PLRs. This would benefit a greater
number of taxpayers, reduce taxpayer burden associated with filing PLR requests, and eliminate
the need for taxpayers to pay the associated user fee.




3
 These codes represent issues ranging from relief provisions for filing late elections, small business elections,
common law tests, and inadvertent determinations.
                                                                                                                                 Page 7
                          Chief Counsel Can Take Actions to Improve
                          the Timeliness of Private Letter Rulings and
                            Potentially Reduce the Number Issued


Recommendation
Recommendation 4: The Chief Counsel should establish a process to annually review issue
codes related to PLRs and determine whether published guidance should be issued.
      Management’s Response: Management partially agreed with this recommendation.
      Management agreed that they should identify common issues in letter ruling requests and,
      when possible and beneficial, issue published guidance that eliminates or reduces the
      need for taxpayers to request letter rulings in connection with those issues. Chief
      Counsel’s current procedures for annually identifying guidance projects do not
      specifically require a review of the issue codes related to letter rulings to determine
      whether published guidance is appropriate. Current letter ruling procedures encourage
      Chief Counsel attorneys to suggest guidance projects based on issues arising in letter
      ruling requests. Chief Counsel management agreed to review these procedures and
      determine whether their processes will benefit from a specific requirement to annually
      review the issue codes related to letter rulings for possible guidance projects.
      Office Audit Comment: Although management agreed that they should identify
      common issues in letter ruling requests, they agreed only to evaluate current procedures
      to determine whether this recommendation will be beneficial. We believe management’s
      evaluation should also include reviewing issue codes for PLRs issued over a period of
      time to fully evaluate the benefit of this recommendation. We recommended an annual
      time period to coincide with the planning process for identifying new published guidance
      projects.




                                                                                        Page 8
                                  Chief Counsel Can Take Actions to Improve
                                  the Timeliness of Private Letter Rulings and
                                    Potentially Reduce the Number Issued


                                                                                               Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether IRS Chief Counsel provided
timely legal advice to taxpayer requests for PLRs and charged taxpayers the appropriate user fees
for PLRs. To accomplish this objective, we:
I.         Identified the PLR process followed by Chief Counsel when PLR requests are received
           from the taxpayer.
           A. Reviewed all department policies and guidance on processing of taxpayer requests for
              PLRs.
           B. Interviewed key IRS personnel responsible for processing taxpayer requests.
           C. Identified through discussions with responsible officials and a review of applicable
              procedures how PLR requests are collected and processed.
           D. Determined the process for considering the issuance of published guidance as a result
              of numerous PLRs received for the same tax issue.
II.        Evaluated whether Counsel provided taxpayers with a timely decision regarding their tax
           issue.
           A. Obtained from the Technical Management Information System (TECHMIS)1 a
              computer extract of all PLRs issued by Chief Counsel during FY 2007 through
              FY 2009.
           B. Validated the reliability of the computer extract. We reviewed the appropriateness of
              data within the requested fields and compared the population totals to information
              provided by Counsel.
           C. Selected and reviewed a statistical sample of 65 PLRs closed during FY 2007 through
              FY 2009 to evaluate Counsel’s actions in processing these cases. The total sample
              was randomly selected from a universe of 3,997 PLR cases closed during FY 2007
              through FY 2009. This sample was selected based on a confidence level of 90 percent, a
              precision rate of ± 6 percent, and an expected error rate of 10 percent.
III.       Determined whether Counsel charged the appropriate user fee for taxpayers seeking a
           PLR.


1
    The TECHMIS is a case control and management information system for all technical guidance work.
                                                                                                       Page 9
                                 Chief Counsel Can Take Actions to Improve
                                 the Timeliness of Private Letter Rulings and
                                   Potentially Reduce the Number Issued


        A. Obtained and reviewed Chief Counsel’s procedures on the processing of PLR user
           fees.
        B. Using the sample in Step II.C., compared the user fee that was charged to the
           taxpayer to the user fee schedule outlined in Internal Revenue Bulletin 2009-1.
IV.     Determined how Chief Counsel measures the PLR program and assessed whether other
        measures could be tracked to improve overall productivity.
        A. Interviewed Chief Counsel on the methodology used in determining performance
           measures for the PLR program.
        B. Evaluated the reasonableness of the measures and goals used to monitor the
           PLR program.
        C. Analyzed the PLR data obtained in Step II.A to identify trends and other potential
           program measures.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Chief Counsel’s policies and procedures for
processing PLRs and collecting appropriate user fees. We evaluated these controls by reviewing
samples of PLR case files, interviewing management, analyzing Chief Counsel’s management
information system, and researching the Integrated Data Retrieval System.2




2
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 10
                          Chief Counsel Can Take Actions to Improve
                          the Timeliness of Private Letter Rulings and
                            Potentially Reduce the Number Issued


                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Joseph F. Cooney, Audit Manager
Jessy T. Joseph, Lead Auditor
Jennifer K. Clewis, Auditor
Angela Garner, Auditor
Jane G. Lee, Auditor




                                                                                  Page 11
                          Chief Counsel Can Take Actions to Improve
                          the Timeliness of Private Letter Rulings and
                            Potentially Reduce the Number Issued


                                                                   Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Chief Counsel (Operations) CC
Deputy Chief Counsel (Technical) CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief Counsel CC




                                                                         Page 12
                                   Chief Counsel Can Take Actions to Improve
                                   the Timeliness of Private Letter Rulings and
                                     Potentially Reduce the Number Issued


                                                                                 Appendix IV

                                       Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•     Taxpayer Burden – Potential; 3,074 taxpayers were potentially burdened because a response
      to their PLR was not provided timely (see page 3).

Methodology Used to Measure the Reported Benefit:
We selected a statistical attribute sample of 65 of the 3,997 PLR requests closed by Chief
Counsel during FY 2007 through FY 2009. Based on our analysis, we determined Counsel did
not timely issue the PLR in 35 cases (54 percent) between 121 and 180 calendar days. Using a
90 percent confidence level and a precision rate of +10.09 percent, we estimated:
      •    2,1521 taxpayers were potentially burdened because a response to their PLR was provided
           by Chief Counsel within 121 to 180 calendar days after their request.
In addition, we determined a PLR was issued more than 180 calendar days after the taxpayer’s
request for 15 cases (23 percent). Using a 90 percent confidence level and a precision rate of
+ 8.53 percent, we estimated:
      •    9222 taxpayers were potentially burdened because a response to their PLR was provided
           by Chief Counsel more than 180 calendar days after their request.




1
    35/65 = .54 (Percentage rounded) x 3,997 = 2,152.
2
    15/65 = .23 (Percentage rounded) x 3,997 = 922.
                                                                                          Page 13
          Chief Counsel Can Take Actions to Improve
          the Timeliness of Private Letter Rulings and
            Potentially Reduce the Number Issued


                                                    Appendix V

Management’s Response to the Draft Report




                                                         Page 14
Chief Counsel Can Take Actions to Improve
the Timeliness of Private Letter Rulings and
  Potentially Reduce the Number Issued




                                               Page 15
Chief Counsel Can Take Actions to Improve
the Timeliness of Private Letter Rulings and
  Potentially Reduce the Number Issued




                                               Page 16
Chief Counsel Can Take Actions to Improve
the Timeliness of Private Letter Rulings and
  Potentially Reduce the Number Issued




                                               Page 17
